OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/TANZANIA’S
ONGOING ACTIVITIES UNDER
THE PRESIDENT’S MALARIA
INITIATIVE

AUDIT REPORT NO. 4-621-11-007-P
APRIL 29, 2011




PRETORIA, SOUTH AFRICA
Office of Inspector General


April 29, 2011

MEMORANDUM

TO:                 USAID/Tanzania Mission Director, Robert F. Cunnane

FROM:               Regional Inspector General/Pretoria, Christine M. Byrne /s/

SUBJECT:            Audit of USAID/Tanzania’s Ongoing Activities Under the President’s Malaria
                    Initiative (Report No. 4-621-11-007-P)

This memorandum transmits our final report on the subject audit. We have considered
management’s comments on the draft report and have incorporated them into the final report as
appropriate. Management comments have been included in their entirety in Appendix II.

The report includes two recommendations to strengthen the mission’s activities under the
President’s Malaria Initiative. On the basis of management’s comments on the draft report, we
consider that management decisions have been reached on both recommendations, with final
action taken on Recommendation 2. Recommendation 2 is thereby closed upon issuance of
this report.   Please provide the Office of Audit Performance and Compliance Division
(M/CFO/APC) with the necessary documentation to achieve final action on Recommendation 1.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International
Development
USAID Office Building
100 Totius Street
Groenkloof X5, 0181
Pretoria, South Africa
www.usaid.gov/oig
CONTENTS
Summary of Results ............................................................................................................. 1

Audit Findings....................................................................................................................... 9

     Targets for Two Key Interventions Were Not
     Sufficient to Track Progress .............................................................................................. 9

     Mission Did Not Sufficiently Track the Availability of
     Artemisinin-based Combination Therapy at Health Facilities ......................................... 10

Evaluation of Management Comments............................................................................. 12

Appendix I—Scope and Methodology .............................................................................. 13

Appendix II—Management Comments ............................................................................. 15




Abbreviations

The following abbreviations appear in this report:

ACT             artemisinin-based combination therapy
IPTp            intermittent preventive treatment for pregnant women
IRS             indoor residual spraying
JSI             John Snow, Inc.
MEDA            Mennonite Economic Development Associates
PMI             President’s Malaria Initiative
RTI             Research Triangle Institute
SP              sulfadoxine-pyrimethamine
SUMMARY OF RESULTS
Although malaria is a preventable and treatable disease, it is estimated to cause between 300
million and 500 million illnesses annually and kill up to 2 million people each year. More than 90
percent of these illnesses and deaths occur in sub-Saharan Africa. In most of sub-Saharan
Africa, children under 5 and pregnant women are the most vulnerable to infection since they
have little or reduced immunity. 1 In the United Republic of Tanzania, 93 percent of the 40.7
million people on the mainland and all 1.2 million people on Zanzibar are at risk for malaria. 2 As
shown in the map below 3 , the rate of prevalence of malaria among Tanzanian children under 5
exceeded 30 percent in some areas.




The President’s Malaria Initiative (PMI) began in 2005 as a 5-year, $1.2 billion U.S. Government
effort to reduce the burden of malaria in 15 African countries. PMI is a U.S. Government
interagency effort spearheaded by USAID and implemented with the Centers for Disease
Control and Prevention. In June 2005, the U.S. Government selected the United Republic of
Tanzania (including the mainland and Zanzibar) as one of the first three countries to be included
in PMI. The Tom Lantos and Henry J. Hyde United States Global Leadership Against
HIV/AIDS, Tuberculosis, and Malaria Reauthorization Act of 2008 4 expanded the effort by
authorizing $5 billion for fiscal years 2009–2013 to fight malaria.

The goal of PMI is to reduce malaria-related mortality by 50 percent after 3 years of
implementation in each country. This goal is to be achieved by reaching 85 percent of the most

1
  President’s Malaria Initiative: Technical Guidance on the Prevention and Control of Malaria. January 10,
2009.
2
  Tanzania Country Profile, President’s Malaria Initiative. April 2010.
3
  Zanzibar is an archipelago made up of Unguja and Pemba, as shown in the map.
4
  Public Law 110-293, Section 303(b).


                                                                                                        1
vulnerable groups—children under 5 and pregnant women—with proven preventive and
therapeutic interventions, including insecticide-treated mosquito nets (bed nets), indoor residual
spraying (IRS), intermittent preventive treatment for pregnant women (IPTp), and artemisinin-
based combination therapy (ACT).

USAID/Tanzania obligated $48.9 million and disbursed $16.5 million for PMI activities to 16
implementing partners from October 1, 2009, through September 30, 2010. The mission’s two
largest partners were Research Triangle Institute (RTI) and Mennonite Economic Development
Associates (MEDA), which received about $27 million and $11 million of the fiscal year 2010
obligations, respectively. RTI is responsible for USAID/Tanzania’s IRS activities; MEDA is
responsible for USAID/Tanzania’s activities related to distributing bed nets. In addition, John
Snow, Inc. (JSI) was allocated $9.7 million by USAID/Washington to coordinate ACT
procurements for Tanzania.

The mission’s Malaria Operational Plan for 2010 established the following goals for the end of
2010:

•   At least 85 percent of houses in geographic areas targeted for IRS will have been sprayed.
•   More than 90 percent of households with a pregnant woman or children under 5 will own at
    least one bed net.
•   At least 85 percent of children under 5 will have slept under a bed net the previous night.
•   At least 85 percent of pregnant women will have slept under a bed net the previous night.
•   At least 85 percent of pregnant women and children under 5 will have slept under a bed net
    the previous night or in a house that has been sprayed with IRS in the last 6 months.
•   At least 85 percent of women who have completed a pregnancy in the last 2 years will have
    received two or more doses of IPTp during that pregnancy.
•   At least 85 percent of children under 5 with suspected malaria will have received treatment
    with ACTs within 24 hours of the onset of symptoms.
•   At least 85 percent of government health facilities will have ACTs available for treatment of
    uncomplicated malaria.

The Regional Inspector General/Pretoria conducted this audit to answer the following questions:

•   Are USAID/Tanzania’s mainland activities under the President’s Malaria Initiative achieving
    their main goal of reducing malaria-related deaths by 50 percent by reaching 85 percent of
    the most vulnerable segments of the population with prevention and treatment
    interventions?

•   Has USAID/Tanzania’s earlier success 5 in reducing malaria-related mortality on Zanzibar
    been sustained?

In answer to the first question, USAID/Tanzania’s ongoing activities under PMI on the mainland
have contributed to reaching the most vulnerable segments of the population with prevention
and treatment interventions; however, USAID/Tanzania’s interventions were not achieving their

5
 The program’s success on Zanzibar was noted in a May 14, 2007, Inspector General report, “Audit of
USAID/Tanzania’s Implementation of the President’s Malaria Initiative” (4-621-07-005-P).


                                                                                                  2
goal of reaching 85 percent of the target population. In answer to the second question,
USAID/Tanzania’s earlier successes appear to have been sustained.



Mainland Activities
USAID/Tanzania had reached the established target for only one type of intervention, IRS, as of
November 1, 2010. Additionally, the mission did not sufficiently track one indicator—the
percentage of government health facilities that have ACTs available for the treatment of
uncomplicated malaria. The results related to the seven outcome indicators that were tracked
are described below. Although USAID/Tanzania could not show that it had reached the targets
for seven of the eight indicators, the mortality rate for children under 5 has decreased by almost
28 percent since USAID began malaria interventions under PMI in Tanzania. 6 Because many
factors affect the mortality rate for children under 5, monitoring and evaluation experts, including
representatives from USAID and the Centers for Disease Control and Prevention, were
conducting an impact assessment to determine the proportion of this reduction attributable to
reductions in malaria-specific mortality.

Indoor Residual Spraying. The goal for indoor residual spraying was to have at least 85
percent of houses in targeted areas sprayed by the end of 2010.

                                                         Figure 1. Coverage of Targeted Houses and Population With IRS

                                                         100.0%                                                                 4,000,000

                                                          90.0%                                                                 3,600,000
            Percent of houses in targeted area sprayed




                                                          80.0%                                                                 3,200,000




                                                                                                                                            Population covered by IRS
                                                          70.0%                                                                 2,800,000

                                                          60.0%                                                                 2,400,000

                                                          50.0%                                                                 2,000,000

                                                          40.0%                                                                 1,600,000

                                                          30.0%                                                                 1,200,000

                                                          20.0%                                                                 800,000

                                                          10.0%                                                                 400,000

                                                           0.0%                                                                 -
                                                                   2007            2008            2009            2010

                                                                  Percent of houses sprayed in the geographic areas targeted for IRS
                                                                  Population covered by IRS



Both the population covered and the area targeted for indoor residual spraying have increased
since 2007, and coverage rates have stayed above the goal of 85 percent (Figure 1 and

6
  This decrease in the mortality rate for children under 5 was for all of Tanzania, but because the
mainland represents 97 percent of the population of Tanzania, the decrease applies to child mortality on
the mainland.


                                                                                                                                                                        3
Table 1). In addition, the implementing partner responsible for IRS was scheduled to start
spraying more districts in January 2011.

                                     Table 1. Coverage of Targeted Houses With IRS
                                                        2007        2008      2009           2010          Target
     Percent of houses sprayed in the                   94.9        98.6      95.2           93.8            85.0
     geographic areas targeted for IRS
     Population covered by IRS                         167,871    448,690   2,086,929    3,791,236            NA

     Source for Figure 1 and Table 1: RTI (Note: The audit team audited the process RTI used to
     prepare this information from the source documents, but was not able to review the preparation
     of the source documents because RTI was not spraying any houses during the audit site visits.)


Bed Net Ownership and Use. The end-of-2010 goals for insecticide-treated net ownership
and use were to have more than 90 percent of households with a pregnant woman or children
under 5 owning at least one bed net, and to have 85 percent of these two vulnerable
populations sleeping under a bed net or in a house that has been sprayed in the last 6 months. 7

                                     Figure 2. Rates of Bed Net Ownership and Use
                             70.0%


                             60.0%                                             Percent of households with a
                                                                               pregnant woman and/or children
                                                                               under 5 that own at least 1 ITN
                             50.0%
          Percent Reported




                             40.0%                                             Percent of children under 5 that
                                                                               slept under an ITN the previous
                                                                               night
                             30.0%


                             20.0%                                             Percent of pregnant women that
                                                                               slept under an ITN the previous
                                                                               night
                             10.0%


                              0.0%
                                     2005       2008             2010



Although none of these indicators reached the targets established by PMI, net ownership and
use increased significantly from 2005 to 2010 (Figure 2 and Table 2). To further increase net
ownership and use, the mission—with the Global Fund to Fight AIDS, Tuberculosis and Malaria
and the Government of Tanzania—initiated two mass distribution campaigns. The first targeted
children under 5 and distributed about 8.8 million long-lasting insecticide-treated nets from
October 2008 to May 2010; the second targeted the rest of the population with 18.9 million nets
and was ongoing as of September 2010, with distribution to be completed in May 2011. The
Global Fund to Fight AIDS, Tuberculosis and Malaria financed most of these campaigns,
contributing over $100 million for the second campaign.

7
  The mission had not yet calculated the percentage of pregnant women and children under 5 that had
either slept under a bed net the previous night or in a house sprayed with IRS in the last 6 months.
However, the information available showed this goal had not been reached as of the beginning of 2010.


                                                                                                                    4
                                      Table 2. Rates of Bed Net Ownership and Use
                        Result                                 2005     2008          2010          Target
     Percent of households with a pregnant                     22.5     38.3          63.4            90
     woman or children under 5 that own at least
     one bed net
     Percent of children under 5 that slept under a            15.9      24.8         64.1             85
     bed net the previous night
     Percent of pregnant women that slept under a              15.4      26.0         57.1             85
     bed net the previous night
     Source for Figure 2 and Table 2: Tanzania National Bureau of Statistics (unaudited)

Intermittent Preventive Treatment for Pregnant Women and Treatment of Children Under
5 With Suspected Malaria Within 24 hours of the Onset of Symptoms. The goals for this
area were that by the end of 2010 at least 85 percent of women who had completed a
pregnancy in the preceding 2 years would have received two or more doses of IPTp during that
pregnancy, and that at least 85 percent of children under 5 with suspected malaria would have
received treatment with ACTs within 24 hours of the onset of symptoms.

                             Figure 3. Coverage of Vulnerable Groups With Malaria Treatment
                          60.0%

                                                                            Percent of women who have
                          50.0%                                             completed a pregnancy i n the
                                                                            l ast 2 years wi l l  have
                                                                            received two or more doses
                          40.0%                                             of IPTp duri ng that pregnancy
       Percent Reported




                                                                            Percent of chi l dren under 5
                          30.0%                                             wi th suspected mal ari a wi l l
                                                                            have received treatment wi th
                                                                            ACTs wi thi n 24 hours of
                          20.0%                                             onset of their symptoms

                                                                            Percent of chi l dren under 5
                          10.0%                                             wi th suspected mal ari a that
                                                                            received any type of
                                                                            anti mal ari al  wi thi n 24 hours
                                                                            of onset of their symptoms
                           0.0%
                                    2005        2008         2010


Although the percentage of pregnant women receiving IPTp increased between 2005 and 2008,
it decreased between 2008 and 2010. USAID and implementing partner officials agreed that
the decrease was largely caused by stock outages of the drug provided to pregnant women
(sulfadoxine-pyrimethamine or SP). For example:

•   In July 2007, when the Ministry of Health and Social Welfare (the Ministry) changed the first-
    line treatment for uncomplicated malaria to ACTs, they did not inform the Medical Stores
    Department 8 (the Department) that SP would still be needed for IPTp.



8
 The Medical Stores Department is part of the Ministry of Health and Social Welfare, but operates like a
government-owned enterprise.


                                                                                                                 5
•     In early 2008, the Government of Tanzania provided SP to health facilities for free, but the
      Ministry and the Department could not agree on which agency should bear the costs for
      distributing the SP. According to the minutes provided by USAID/Tanzania of a meeting
      between donors and officials from the Government of Tanzania in August 2010, Department
      officials noted that the Ministry still owed them 96 million Tanzanian shillings (about
      $64,000) for this distribution.

•     USAID/Tanzania officials noted that they have considered purchasing SP, but because the
      drug is produced locally and the U.S. Government cannot purchase locally manufactured
      SP, they decided against importing SP.

Mission officials noted that these political obstacles were a primary reason for stock outages,
although these obstacles had been resolved as of December 2010. Mission and implementing
partner officials noted they were formulating new strategies to increase the percentage of
pregnant women receiving IPTp. Still, the audit found the target unrealistic (page 9).

The percentage of children under 5 with suspected malaria who received ACTs within 24 hours
of the onset of symptoms has been measured only twice, in 2008 and 2010 (Table 3).

                 Table 3. Coverage of Vulnerable Groups With Malaria Treatment
                                                                       2005     2008      2010   Target
     Percent of women who have completed a pregnancy in the last
     2 years will have received two or more doses of IPTp during       21.9      29.6     25.7    85
     that pregnancy
     Percent of children under 5 with suspected malaria will have
     received treatment with ACTs within 24 hours of the onset of      NA        14.2     26.7    85
     symptoms
     Percent of children under 5 with suspected malaria that
     received antimalarials within 24 hours of the onset of            51.1      34.4     41.5    85
     symptoms
    Source for Figure 3 and Table 3: Tanzania National Bureau of Statistics (unaudited)

Mission officials noted that no measurement was made in 2005 because the Government of
Tanzania did not introduce ACTs as the first-line treatment for malaria until 2007. Although the
percentage nearly doubled from 2008 to 2010, the percentage of children with suspected
malaria who received any type of antimalarial within 24 hours of the onset of symptoms
decreased between 2005 and 2010. In other words, a higher percentage of children with
suspected malaria received treatment in 2005 than in 2010. Additionally, the percentage
reported for 2010 (26.7 percent) is still almost 60 percent below the target, indicating that the
target is unrealistic (page 9).

Several factors may explain the lack of progress. One is that USAID/Tanzania has not had a
program to promote the rapid and accurate treatment of children with malaria-related symptoms,
although at the time of our audit the mission was receiving applications for a new program to
promote the treatment of febrile illnesses in children. Another factor is the limited availability of
ACTs: almost 15 percent of children treated for suspected malaria received an antimalarial other
than an ACTs. However, the latter factor is difficult to quantify because USAID does not have a
reliable means to track the availability of ACTs at health facilities in Tanzania (page 10).




                                                                                                          6
Zanzibar Activities
In Zanzibar, it appears that the significant decrease in malaria prevalence described in a May
2007 Office of Inspector General report has been sustained. As shown in the map on page 1,
malaria prevalence in children under 5 on the Zanzibari islands of Unguja and Pemba was 0.8
percent and 1.1 percent, respectively, in August 2008. 9 Additionally, a report prepared by the
Zanzibar Malaria Control Programme indicated that, of those people with malaria symptons that
were tested between January and June 2010, only 1.8 percent of them tested positive for
malaria. 10 Therefore, one can conclude that the percentage of the total population with malaria
would be much lower.

However, while the goal of reaching 85 percent coverage of the most vulnerable segments of
the population has been reached for IRS, other key interventions—bed nets and intermittent
preventive treatment for pregnant women—are lagging and showing signs of stagnation.
Between the 2007/2008 Tanzania HIV/AIDS and Malaria Indicator Survey and the 2009/2010
Demographic and Health Survey, bed net ownership improved from 72 to 76 percent, but bed
net use among children and pregnant women fell by 4 and 1 percentage points, respectively.
Mission officials noted that this recent reduction in bed net use may be a result of the
population's perceived reduction in the risk of contracting malaria in Zanzibar.

The earlier decrease in malaria prevalence is being more systematically monitored through PMI
support of a mobile-phone-based malaria surveillance system that collects weekly malaria data
from 69 health facilities in Zanzibar. Finally, the 2007/2008 Tanzania HIV/AIDS and Malaria
Indicator Survey reported that since PMI activities started in Zanzibar, all-cause mortality rate
for children under 5 has declined by 22 percent. The proportion of this decline attributable to
reductions in malaria-specific mortality is being investigated.

USAID/Tanzania was considering a number of issues necessary to build upon earlier
successes, such as how to keep bed net ownership and usage rates up, when and how to scale
down and terminate IRS programs in Zanzibar, whether a mass screening and treatment
campaign should be used to decrease malaria prevalence even further, and whether Zanzibar
can fund and sustain the malaria interventions in the near future.

The audit findings relate to mainland activities:

•   Targets for two key interventions were not sufficient to track progress (page 9).
•   Mission did not sufficiently track the availability of ACTs at health facilities (page 10).

Detailed findings appear in the following section.

To address these findings, we make two recommendations:

1. Develop realistic targets to track progress toward achieving overall President’s Malaria
   Initiative goals (page 9).

2. Develop and implement a reliable, cost-effective means of determining the availability of
   ACTs at health facilities in Tanzania (page 11).
9
   As recently as 2005, the prevalence rate of the malaria parasite was 25–30 percent in the population
tested.
10
   These data were unaudited.


                                                                                                     7
The audit’s scope and methodology are described in Appendix I, and the mission’s comments
are included in Appendix II. Our evaluation of the mission’s comments is on page 12.




          ACTs delivered to the central warehouse in Dar es Salaam come in
          packages bearing the logos of the two U.S. Government agencies involved
          in implementing PMI: USAID and the Centers for Disease Control and
          Prevention. (Photos by Regional Inspector General/Pretoria, November 16,
          2010)




                                                                                       8
AUDIT FINDINGS
Targets for Two Key Interventions Were
Not Sufficient to Track Progress
Performance targets are critical elements of USAID’s results-oriented management philosophy.
Targets orient stakeholders to the tasks to be accomplished and motivate individuals involved in
a program to do their best to ensure the targets are met. Once a program is under way, targets
serve as the guideposts for judging whether progress is being made on schedule and at the
levels originally envisioned. Reflecting the importance of targets, the USAID Automated
Directives System 203.3.4.5 states that missions should “set performance targets that are
ambitious, but can realistically be achieved within the stated timeframe and with the available
resources."

Despite this guidance, two key malaria interventions had targets that were not realistic. The
2010 Malaria Operational Plan established the following goals to be achieved by the end of
2010 for these two interventions: (1) at least 85 percent of women who have completed a
pregnancy in the last 2 years will have received two or more doses of IPTp during that
pregnancy and (2) at least 85 percent of children under 5 with suspected malaria will have
received treatment with ACTs within 24 hours of the onset of symptoms. However, according to
the Tanzania Demographic and Health Survey for 2010, these indicators were 26 and 27
percent for IPTp and ACT treatment for children under 5, respectively. Mission officials noted
that the targets were unrealistic given the local operating environment.

The President’s Malaria Initiative has a single set of country-level targets for the four major
control measures, including the above interventions. The targets are the same for each focus
country. Mission officials believed that they did not have any control over the targets, which
were set by the PMI Coordinator’s office in Washington, D.C. However, the mission could set
intermediate targets to measure incremental progress in achieving the ultimate country-level
goals established by PMI. By using only the ultimate targets, which were not feasible in the
short term, USAID/Tanzania deprived itself of the motivational benefits that properly set targets
can provide. More importantly, these unrealistic targets were not useful in managing for results.
Consequently, this audit makes the following recommendation.

   Recommendation 1. We recommend that USAID/Tanzania develop realistic targets to
   track its progress toward achieving the overall goals of the President’s Malaria Initiative.




                                                                                                  9
Mission Did Not Sufficiently Track the
Availability of Artemisinin-based
Combination Therapy at Health Facilities
Automated Directives System 203.3.2.1 notes that one of the principal steps in performance
management is "collecting and analyzing performance information to track progress toward
planned results," and adds that mission officials "should regularly collect, analyze, and interpret
the data in order to enhance [the mission’s] ability to make program/project adjustments in a
timely manner."

Despite these requirements, USAID/Tanzania did not have a system in place to provide reliable
information about the availability of ACTs for the treatment of uncomplicated malaria at
government health facilities, one of the key indicators contained in the 2010 Malaria Operational
Plan. The only recent information the mission relied on came from end user surveys prepared
by JSI. These surveys used a sample that was neither random nor large enough to project to
the population. To conduct these surveys, JSI visited 20 different clinics each quarter and
reported to USAID on the availability of health commodities at each. Therefore, although the
survey for the quarter ended September 30, 2010, showed that 37 percent of service delivery
points did not have any ACTs in stock, and 84 percent of service delivery points were missing at
least one formulation 11 of ACTs, the mission could not use this information to report on the
availability of ACTs countrywide.

Dependable information was not available because USAID/Tanzania’s Office of Health and
Population relied on the surveys prepared by JSI, although the information was not reliable.
USAID/Tanzania had addressed the lack of reliability in the performance management plan by
calling for a service provider assessment to be completed every 2–3 years to determine, using a
nationally representative sample, the availability of health commodities at clinics in Tanzania.
Mission officials noted that a service provider assessment was not completed because the
Government of Tanzania did not want one. As of January 2011, Government of Tanzania
officials were still working on a nationwide logistics management system, rolled out in December
2009, which they believe is the only way to better gauge ACT stock at the facility level. Mission
officials did not rely on the system because of late and incomplete reporting by facilities. Given
the limitations on the information available, the use of statistical sampling may be a useful
source of additional information. With reasonable assumptions of the expected error and
precision, as well as a 90 percent confidence interval, it would be possible to project the
availability for all 4,500 clinics by reviewing a random sample of 50 clinics.

Without an up-to-date service provider assessment or another reliable assessment of the
availability of ACTs, mission officials and other stakeholders were unsure whether ACTs were
widely available on the mainland and what effect limited availability might have on the treatment
of malaria. Reliable information about the availability of ACTs would help USAID and other
donors decide how to increase the percentage of children with suspected malaria that are
treated with ACTs.

Reliable information could also serve as an inventory control. An August 21, 2010, article in the
Wall Street Journal noted that perhaps tens of thousands of donated antimalarials were stolen
from Tanzania’s central stores. The article states: “What we know for sure is that donated

11
  A formulation is a type of dose for a specific age range. In order to treat all age ranges, a clinic should
have four formulations of ACTs.


                                                                                                          10
products, which are supposed to be given free to clinics, are not reaching patients and are being
stolen and diverted.” Although the audit did not verify the accusations made in the article, the
lack of reliable data on antimalarial stocks at clinics could allow the theft of drugs to go
undetected.     To emphasize the need for reliable information, we make the following
recommendation.

   Recommendation 2. We recommend that USAID/Tanzania develop and implement a
   reliable, cost-effective means of determining the availability of artemisinin-based
   combination therapy at health facilities in Tanzania.




                                                                                              11
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report, USAID/Tanzania agreed with both recommendations, and
management decisions have been reached on both. In addition, final action has been taken on
Recommendation 2. Our detailed evaluation of management’s comments follows.

For Recommendation 1, the mission agreed to meet with PMI officials and develop realistic
annual targets during the fiscal year 2012 consultative meeting process, which is scheduled for
May 2011. New annual targets will be part of the fiscal year 2012 Malaria Operational Plan,
which is expected to be approved in December 2011. Based on management comments, a
management decision has been reached on Recommendation 1.

For Recommendation 2, the mission agreed to develop and implement a reliable, cost-effective
means of determining the availability of ACTs at health facilities in Tanzania. The mission noted
that it had consulted with the Government of Tanzania and JSI and developed a plan to
increase the sample size to 640 randomly selected health facilities per year, with each facility
being visited twice a year. The survey using the new methodology will commence in May 2011.
Accordingly, a management decision has been reached and final action taken on
Recommendation 2.




                                                                                              12
                                                                                        Appendix I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Pretoria conducted this performance audit in accordance with
generally accepted government auditing standards. 12 Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions in accordance with our audit objective. We believe that the evidence
obtained provides that reasonable basis. The purpose of this audit was to determine (1)
whether USAID/Tanzania’s ongoing activities under PMI are achieving their main goal of
reducing malaria-related deaths by 50 percent by reaching 85 percent of the most vulnerable
segments of the population with prevention and treatment interventions and (2) whether
successes on Zanzibar previously reported by the USAID Office of Inspector General have been
sustained.

The scope of the audit covered results for activities conducted from fiscal year 2006 to fiscal year
2010. The Regional Inspector General/Pretoria performed this audit at USAID/Tanzania, the
offices of implementing partners in Dar es Salaam and Mwanza, the office of the National Malaria
Control Program, the Medical Stores Department offices and central warehouse in Dar es Salaam,
the Medical Stores Department zonal warehouse in Mwanza, the regional medical officer’s office in
Mwanza, and two health facilities in the Mwanza Region. The audit was conducted from
November 1 through November 19, 2010. The Mwanza Region was visited during the audit
because it has the largest zonal warehouse in Tanzania and because it is one of three regions on
the mainland where indoor residual spraying operations take place.

In planning and performing the audit, the audit team assessed management controls related to
USAID/Tanzania’s organizational structure, the agreement process, program planning, data quality
management, reporting procedures, ongoing monitoring, and program evaluations.

Between October 1, 2004, and September 30, 2010, $165.2 million was budgeted for PMI
activities in Tanzania. USAID/Tanzania obligated $48.9 million and disbursed $16.5 million for
PMI activities between October 1, 2009, and September 30, 2010. We reviewed the two largest
partners funded by USAID/Tanzania, RTI and MEDA, which received about $27 million and
$11 million of the fiscal year 2010 obligations, respectively. RTI was responsible for
USAID/Tanzania’s IRS activities. MEDA was responsible for USAID/Tanzania’s activities
related to bed nets. In addition, we reviewed the activities of JSI to coordinate the ACT
procurement for Tanzania. JSI was allocated $9.7 million by USAID/Washington that was not
included in the $48.9 million obligated by USAID/Tanzania noted above.

Methodology
To answer the audit objectives, we reviewed the key planning and reporting documents for
USAID/Tanzania, as well as reports from implementing partners and the Government of
Tanzania to identify the key goals of PMI in Tanzania and the achievements reported by
USAID/Tanzania and its partners.


12
     Government Auditing Standards, July 2007 Revision (GAO-07-731G).


                                                                                                 13
                                                                                       Appendix I


These documents included:

•     The performance management plan dated April 2009
•     The fiscal year 2009 performance plan and report
•     The fiscal year 2010 Malaria Operational Plan
•     The 2004-05 Tanzania Demographic and Health Survey
•     The 2007/2008 Tanzania HIV/AIDS and Malaria Indicator Survey
•     The 2010 Preliminary Results from the Tanzania Demographic and Health Survey
•     Quarterly end-user verification surveys from October 2008 to September 2010
•     The Fiscal Year 2010 checklist and certification required under the Federal Managers’
      Financial Integrity Act of 1982. 13

Using these documents, we identified key outcome indicators identified in the Malaria
Operational Plan as the highest level indicators available for review. The highest level indicator
results were mostly from the Tanzania Demographic and Health Surveys and the Tanzania
HIV/AIDS and Malaria Indicator Survey. These surveys were reviewed by the audit team to
ensure that the results were sufficient and reliable. Specifically, the sample size was large
enough to be reasonably precise and the survey was prepared by the Tanzania Bureau of
Statistics, which was independent of USAID/Tanzania’s malaria activities.

To determine USAID/Tanzania’s progress toward achieving these goals, we met with officials
from USAID/Tanzania, the Government of Tanzania, MEDA, RTI, and JSI. We reviewed the
records maintained by RTI for IRS in the Mwanza Region, which enabled us to verify the
accuracy of the outcome indicators that came directly from RTI.

In addition, we identified the commodity supply chain as a key area for the success of the
program. To identify any weaknesses in this area, we reviewed the procedures used to
procure, store, and distribute commodities, specifically ACTs, in Tanzania. Additionally, we
reviewed the invoices for procurements received at the airport, the receiving note prepared
when a shipment arrives at the central warehouse, the transfer-out documents prepared by the
Medical Stores Department central warehouse, and the transfer-in documents prepared in
Mwanza for shipments to the Mwanza warehouse.

We reconciled the differences between the information in the inventory management system
used by the Medical Stores Department and the documentation collected for procurements and
the summary schedule prepared by JSI. We also reviewed the documentation supporting the
information in the inventory management system and found no exceptions.

We utilized the Government Accountability Office’s Standards for Internal Control in the Federal
Government and USAID’s Automated Directives System, Chapters 200 through 203.

We established two materiality thresholds to determine success. If the coverage of malaria
interventions had increased since the program began, but did not reach 85 percent, the stated
goal, we stated that the program had made progress, but had not achieved the goal. If the
program had achieved 85 percent coverage, we stated that the program had succeeded.

13
     As codified in 31 U.S.C. 3512.


                                                                                               14
                                                                                      Appendix II



MANAGEMENT COMMENTS


MEMORANDUM

       DATE:          April 6, 2011

       REPLY TO
       ATTN OF:       Robert Cunnane, Mission Director /s/

       SUBJECT:       Mission Comments on “Audit of USAID/Tanzania’s Ongoing Activities
                      Under the President’s Malaria Initiative” (Report No. 4-461-11-XXX-P)

       TO:     Christine Byrne, Regional Inspector General/Pretoria

       REF: AUDIT REPORT No. 4-621-11-XXX-P, dated March 7, 2011


This memorandum transmits the Mission’s comments on the subject audit of the President’s
Malaria Initiative (PMI) in Tanzania. The Mission will address the two recommendations, and
has already taken steps to close Recommendation 2. However, The Mission takes issue with
the finality of the heading for Audit Finding #2, which implies that USAID/Tanzania did not do
any facility-based ACT tracking at all. JSI DELIVER had been carrying out end-use verification
surveys in 20 facilities per quarter before and at the time of this audit. The Mission clearly
appreciates the challenges of tracking ACTs at health facilities, and would agree that the
availability of ACTs at health facilities was not sufficiently tracked at the time of this audit.

                 Plan for Corrective Actions with Target Completion Dates

Recommendation 1: We recommend that USAID/Tanzania develop realistic targets to
track its progress toward achieving the overall goals of the President’s Malaria Initiative.

Mission Response: Mission concurs. The PMI/Tanzania team will consult with PMI
Headquarters to develop realistic annual targets for all outcome indicators, including “Percent of
women who have completed a pregnancy in the last two years who have received two or more
doses of IPTp during that pregnancy,” and “Percent of children under 5 with suspected malaria
who have received treatment with ACTs within 24 hours of the onset of symptoms” during the
FY 2012 consultative meeting process, which is scheduled for May 2011. New annual targets
will be part of the FY 2012 Malaria Operational Plan, which is expected to be approved in
December 2011. These indicators will be tracked annually through the MoHSW’s “sentinel
panel of districts” system, which currently captures health facility and community data from 27
districts, representing a national sample.




                                                                                               15
                                                                                       Appendix II


The to-be-approved FY 2012 Malaria Operational Plan will be forwarded to the Regional
Inspector General/Pretoria to close this recommendation.

Recommendation 2: We recommend that USAID/Tanzania develop and implement a
reliable, cost-effective means of determining the availability of artemisinin-based
combination therapy at health facilities in Tanzania.

Mission Response: Mission concurs. In August 2010, the Mission began to address this issue
in conjunction with NMCP, MSD, and JSI by discussing the methodology of end-use verification
surveys to provide sufficient information on ACT availability at the health facility level. In
January 2011, plans with JSI were finalized to increase the sample size to 640 randomly-
selected health facilities per annum, with each facility being visited twice per year. This will
represent 13% of Mainland health facilities, providing a more representative snapshot and
enabling trend analyses to be conducted. The survey using the new methodology will
commence in May 2011.

The first report reflecting the use of this new methodology will be sent to the Regional Inspector
General/Pretoria in August 2011 to close this recommendation.




                                                                                                16
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
